<html>
<title> - THE PRESIDENT'S FISCAL YEAR 2015 BUDGET PROPOSAL WITH U.S. DEPARTMENT OF THE TREASURY SECRETARY JACOB J. LEW</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






                THE PRESIDENT'S FISCAL YEAR 2015 BUDGET
                  PROPOSAL WITH U.S. DEPARTMENT OF THE
                    TREASURY SECRETARY JACOB J. LEW

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 6, 2014

                               __________

                          Serial No. 113-FC15

                               __________

         Printed for the use of the Committee on Ways and Means



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

21-114                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001






















                      COMMITTEE ON WAYS AND MEANS

                     DAVE CAMP, Michigan, Chairman

SAM JOHNSON, Texas                   SANDER M. LEVIN, Michigan
KEVIN BRADY, Texas                   CHARLES B. RANGEL, New York
PAUL RYAN, Wisconsin                 JIM MCDERMOTT, Washington
DEVIN NUNES, California              JOHN LEWIS, Georgia
PATRICK J. TIBERI, Ohio              RICHARD E. NEAL, Massachusetts
DAVID G. REICHERT, Washington        XAVIER BECERRA, California
CHARLES W. BOUSTANY, JR., Louisiana  LLOYD DOGGETT, Texas
PETER J. ROSKAM, Illinois            MIKE THOMPSON, California
JIM GERLACH, Pennsylvania            JOHN B. LARSON, Connecticut
TOM PRICE, Georgia                   EARL BLUMENAUER, Oregon
VERN BUCHANAN, Florida               RON KIND, Wisconsin
ADRIAN SMITH, Nebraska               BILL PASCRELL, JR., New Jersey
AARON SCHOCK, Illinois               JOSEPH CROWLEY, New York
LYNN JENKINS, Kansas                 ALLYSON SCHWARTZ, Pennsylvania
ERIK PAULSEN, Minnesota              DANNY DAVIS, Illinois
KENNY MARCHANT, Texas                LINDA SANCHEZ, California
DIANE BLACK, Tennessee
TOM REED, New York
TODD YOUNG, Indiana
MIKE KELLY, Pennsylvania
TIM GRIFFIN, Arkansas
JIM RENACCI, Ohio

        Jennifer M. Safavian, Staff Director and General Counsel

                  Janice Mays, Minority Chief Counsel
                  
                  
                  
                  
                  
                  




















                            C O N T E N T S

                               __________

                                                                   Page

Advisory of March 6, 2014 announcing the hearing.................     2

                                WITNESS

The Honorable Jacob J. Lew, Secretary, U.S. Department of the 
  Treasury.......................................................     3
 
                THE PRESIDENT'S FISCAL YEAR 2015 BUDGET
                  PROPOSAL WITH U.S. DEPARTMENT OF THE
                    TREASURY SECRETARY JACOB J. LEW

                              ----------                              


                        THURSDAY, MARCH 6, 2014

                     U.S. House of Representatives,
                               Committee on Ways and Means,
                                                    Washington, DC.

    The Committee met, pursuant to notice, at 9:32 a.m., in 
Room 1100, Longworth House Office Building, Hon. Dave Camp 
[Chairman of the Committee] presiding.

    [The advisory announcing the hearing follows:]

ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                                                CONTACT: (202) 225-3625
FOR IMMEDIATE RELEASE
Thursday, February 27, 2014
No. FC-15

                   Chairman Camp Announces Hearing on

                the President's Fiscal Year 2015 Budget

                  Proposal with U.S. Department of the

                    Treasury Secretary Jacob J. Lew

    House Ways and Means Committee Chairman Dave Camp (R-MI) today 
announced that the Committee on Ways and Means will hold a hearing on 
President Obama's budget proposals for fiscal year 2015. The hearing 
will take place on Thursday, March 6, 2014, in 1100 Longworth House 
Office Building, beginning at 9:30 a.m.
      
    In view of the limited time available to hear the witness, oral 
testimony at this hearing will be from the invited witness only. The 
sole witness will be the Honorable Jacob J. Lew, Secretary, U.S. 
Department of the Treasury. However, any individual or organization not 
scheduled for an oral appearance may submit a written statement for 
consideration by the Committee and for inclusion in the printed record 
of the hearing.
      

BACKGROUND:

      
    On March 4, 2014, the President is expected to submit his fiscal 
year 2015 budget proposal to Congress. The proposed budget will detail 
his tax proposals for the coming year as well as provide an overview of 
the budget for the Treasury Department and other activities of the 
Federal Government. The Treasury plays a key role in many areas of the 
Committee's jurisdiction.
      
    In announcing this hearing, Chairman Camp said, ``A tax code that 
is simpler and fairer will make the economy stronger so there are more 
jobs and bigger paychecks. It is important that any closing of special-
interest loopholes be used to lower tax rates--not to pay for new 
spending--so employers can start hiring again, families can save more 
and wages can start to grow. The Tax Reform Act of 2014, released last 
week, achieves these goals and includes ideas advanced by Democrats and 
Republicans in Congress, as well as those offered by the Obama 
Administration. This hearing will provide the Committee an opportunity 
to review the President's tax proposals and Treasury Secretary Lew the 
opportunity to share ideas in the President's budget designed to meet 
those same goals.''
      

FOCUS OF THE HEARING:

      
    U.S. Department of the Treasury Secretary Lew will discuss the 
details of the President's budget proposals that are within the 
Committee's jurisdiction.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://waysandmeans.house.gov, select 
``Hearings.'' Select the hearing for which you would like to submit, 
and click on the link entitled, ``Click here to provide a submission 
for the record.'' Once you have followed the online instructions, 
submit all requested information. ATTACH your submission as a Word 
document, in compliance with the formatting requirements listed below, 
by the close of business on Thursday, March 20, 2014. Finally, please 
note that due to the change in House mail policy, the U.S. Capitol 
Police will refuse sealed-package deliveries to all House Office 
Buildings. For questions, or if you encounter technical problems, 
please call (202) 225-1721 or (202) 225-3625.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be provided in 
Word format and MUST NOT exceed a total of 10 pages, including 
attachments. Witnesses and submitters are advised that the Committee 
relies on electronic submissions for printing the official hearing 
record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All submissions must include a list of all clients, persons and/
or organizations on whose behalf the witness appears. A supplemental 
sheet must accompany each submission listing the name, company, 
address, telephone, and fax numbers of each witness.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TDD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      
    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://www.waysandmeans.house.gov/.

                                 <F-dash>

    Chairman CAMP. Good morning. This hearing will come to 
order. Welcome, Secretary Lew. We appreciate you being here 
with us this morning, and your full written testimony will be 
made part of the record.
    Given that the House of Representatives is scheduled to 
begin voting at approximately 10:00 a.m. this morning. I would 
ask that you would provide a brief oral summary of your 
testimony, so we can move more quickly to questions from 
Members of the Committee. But in order to give as many Members 
as possible the opportunity to question the Secretary, Ranking 
Member Levin and I will forgo our opening statements. And, in 
addition, we will reduce to 3 minutes the time for questioning.
    So, Secretary Lew, welcome, and please begin.

   STATEMENT OF THE HONORABLE JACOB J. LEW, SECRETARY, U.S. 
                   DEPARTMENT OF THE TREASURY

    Secretary LEW. Thank you very much, Mr. Chairman, Ranking 
Member Levin, Members of the Committee. I appreciate the 
opportunity to testify today on the President's budget.
    Before I begin, let me say a few words about the situation 
in Ukraine. President Obama has explained in no uncertain terms 
that the steps Russia has taken to violate Ukraine's 
sovereignty, Ukraine's territorial integrity, and--are a breach 
of international law. As the President announced this morning, 
he has signed an executive order to authorize sanctions on 
individuals and entities responsible for activities that 
undermine the democratic process, threaten the peace, security, 
stability, sovereignty, or territorial integrity of Ukraine, or 
misappropriate state assets within Ukraine.
    This executive order is a flexible tool that will allow us 
to sanction those who are most directly involved in 
destabilizing Ukraine, including the military intervention in 
Crimea, and does not preclude further steps, should the 
situation deteriorate.
    These sanctions build upon previous actions that the United 
States has taken. But, at the same time, as the President has 
said, we are prepared to work with all parties to de-escalate 
the situation, and we call on Russia to take the necessary 
actions to resolve this crisis. It is in Russia, the United 
States, and the world's best interests to have a stable and 
prosperous Ukraine. And as the Ukrainian government prepares 
for elections in May, it is critical that the international 
community work together to support its efforts to restore 
economic stability.
    I have spoken with the Ukrainian prime minister a number of 
times, and he has told me that the government is ready to adopt 
vital economic reforms. We have been working closely with 
international partners and Congress to develop an assistance 
package that will help the Ukrainian Government implement 
reforms needed to restore financial stability and return to 
economic growth. As part of this international effort, the 
United States has developed a package of bilateral assistance 
focused on meeting Ukraine's most pressing needs. This package 
will include $1 billion in loan guarantees and IMF quota 
legislation, which would support the IMF's capacity to lend 
additional resources to Ukraine, and help preserve continued 
U.S. leadership within this important institution at a critical 
time.
    While the United States will not increase our total 
financial commitment to the IMF by approving the 2010 reforms, 
it is important to note that, for every dollar the United 
States contributes to the IMF, other countries provide $4 more. 
At a time when the U.S. is at the forefront of international 
calls in urging the fund to play a central and active first-
responder role in Ukraine, it is imperative that we secure 
passage of IMF legislation now, so we can show support for the 
IMF in this critical moment, and preserve our leading 
influential voice in that institution.
    I want to be clear that, even as we deal with the unfolding 
events in Ukraine, we continue to focus on our central 
objective, which is expanding opportunity for all Americans. 
Over the past 5 years, we have accomplished a number of 
important things to make our country stronger and better 
positioned for the future. In fact, since 2009 the economy has 
steadily expanded. Our businesses have added 8.5 million jobs 
over the last 47 months. The housing market has improved and 
rising housing prices are pulling millions of home owners from 
under water. At the same time, household and business balance 
sheets continue to heal, exports are growing, and manufacturing 
is making solid gains.
    The truth is, as the President said in his State of the 
Union, we are more ready to meet the demands of the 21st 
century than any other country on earth. Nevertheless, our 
economy was thrown against the ropes by the worst recession of 
our lifetimes. And, while we are back on our feet, we are not 
where we want to be yet. Everyone here understands that. And 
the question is, what are we going to do about it?
    The President's budget lays out a clear path to move us in 
the right direction. It not only fulfills the President's 
pledge to make this a year of action, it offers a framework for 
long-term prosperity and competitiveness. This budget addresses 
the critical issues we face as a Nation. It recognizes that 
while corporate profits have been hitting all-time highs, 
middle-class wages hit a plateau, with long-term unemployment 
and ongoing challenge. It recognizes that while the stock 
market has been vibrant, saving for retirement and paying for 
college is little more than a dream for millions of American 
families. It recognizes that while our national security 
threats are shifting, and we are bringing the war in 
Afghanistan to a responsible end, soldiers, military families, 
and veterans struggle to succeed in our economy. And it 
recognizes that while work is being done to put the final 
pieces of financial reform in place, reforms like the Volcker 
Rule have made our financial system stronger, and an engine for 
economic growth once again.
    The solutions in this budget flow from a frank assessment 
of these challenges. They are carefully designed to show the 
choices we can make to increase opportunity and bolster the 
middle class.
    For instance, a cornerstone of these proposals is to expand 
the earned income tax credit, so it reaches more childless 
workers. We know this credit is one of the most effective tools 
for fighting poverty, and it is time to adjust it so it does an 
even better job rewarding hard work. This tax cut, which would 
go to more than 13 million Americans, will be fully offset by 
ending loopholes that let high-income professionals avoid the 
income and payroll taxes that other workers pay.
    Another initiative that will make a difference for hard-
working men and women is myRA. This retirement security program 
will be available later this year, and it will allow Americans 
to start building a nest egg that is simple, safe, and can 
never go down in value.
    While this budget puts forward essential pro-growth 
initiatives, it also calls on Congress to reinforce our growth-
enhancing strategies by passing measures like comprehensive 
immigration reform and trade promotion authority. But even as 
it does these things, make no mistake; this budget is also 
serious about building on the success we have made together to 
restore fiscal responsibility.
    The fact of the matter is, the deficit, as a share of GDP, 
has fallen by more than half since the President took office, 
marking the most rapid decline in the deficit since the period 
of demobilization following the end of World War II. The 
deficit is projected to narrow even more this year. And today 
we are charting a course that will push the deficit down to 
below 2 percent of GDP by 2024, and rein in the national debt 
relative to the size of the economy over 
10 years.
    Last year, the President put forward his last offer to 
Speaker Boehner in his budget as part of a balanced compromise. 
This year's budget reflects the President's vision of the best 
path forward. While the President stands by his last offer, he 
believes that the measures in his budget are the best way to 
strengthen the economy now. As this budget demonstrates, the 
President is firmly committed to making tough choices to tackle 
our fiscal challenges and our fair and balanced solutions 
represent a comprehensive approach to strengthening our 
Nation's financial footing.
    This approach shrinks the deficit and debt by making 
detailed responsible changes to Medicare, while eliminating 
wasteful corporate tax loopholes and subsidies that do not help 
our economy, and by scrapping tax breaks for those who do not 
need them.
    Increasing basic fairness in our tax code is not just about 
improving our Nation's fiscal health, though. It is also about 
generating room so we can make investments that will strengthen 
the foundation of our economy for years to come. This means 
helping to create more jobs by repairing our infrastructure, 
increasing manufacturing, boosting research and technology, and 
fostering domestic energy production. It means training 
Americans so they can get those jobs by promoting 
apprenticeships and upgrading worker training programs. It 
means improving our education system by expanding access to 
preschool and modernizing high schools. And it means making 
sure hard work pays off by creating more Promise Zones, 
increasing college affordability, and raising the minimum wage 
to $10.10 an hour, and indexing it to inflation.
    In closing, let me point out that this budget represents a 
powerful jobs growth and opportunity plan. It is carefully 
designed to make our economy stronger, while keeping our fiscal 
house in order.
    What is more, it offers Washington a real chance to work 
together. As everyone on this Committee knows, for far too long 
brinkmanship in Washington has been a drag on economic growth. 
But we have seen a significant amount of bipartisan progress in 
recent months that has helped improve economic momentum. Some 
cynics say it is fleeting, some call it election year 
posturing, but I don't agree. I believe this progress is real, 
I believe we can keep finding common ground to make a 
difference, and I believe we can continue to get serious things 
done on behalf of the American people by working together.
    I thank you, and I look forward to answering your 
questions.
    [The prepared statement of Secretary Lew follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
  

                                 
    Chairman CAMP. Well, thank you very much, Mr. Secretary. 
The Administration's budget proposal assumes that three 
temporary tax provisions that were first enacted in 2009 and 
expire in 2017 are permanent. This means that making them 
permanent doesn't ``cost anything,'' as they don't have to be 
offset. Making these provisions permanent relative to current 
law is estimated to cost about $154 billion. What standard did 
you use to determine what extenders would be assumed to be 
permanent and not offset, and which would not?
    Secretary LEW. Mr. Chairman, you are asking a question 
about the baseline that we used, and baselines are a 
complicated technical matter. We have tried----
    Chairman CAMP. I am fully aware of that.
    Secretary LEW. I know. I understand you know that. And we 
have tried for the last number of years to have the baseline 
reflect, as best as it can, the things that are, in practice, 
more permanent, and really part of the ongoing, you know, 
challenge of funding government.
    We believe the refundable tax credits, the earned income 
tax credit, the items you were referring to, should be made 
permanent. We made that case, obviously, many times over. It 
actually doesn't make a difference whether it is in the 
baseline or not, in terms of what the final bottom line is. A 
budget has to cover all of the spending and revenue flows in 
it.
    And the bottom line is that when you look at our budget, by 
reducing the deficit to 3 percent of GDP, and on a path to 1.9 
percent of GDP, we have put together a package that 
accommodates it. It is a technical decision that I think is the 
right one. Others, the Center for Responsible Budgets, the 
Senate Budget Committee, others, have made a similar decision. 
I understand there are technical issues in the baseline that--
--
    Chairman CAMP. And--well, and if I might, there are many 
tax extenders that have been part of the tax code for a lot 
longer than those three provisions, such as Section 179 for 
small business expensing, which was part of the 2001 and 2003 
tax relief, or the R&D tax credit, for example, which was 
enacted in 1981. So I think a strong case can be made that 
these provisions should be permanent, as well.
    And, obviously, when I released the discussion draft on 
comprehensive reform, I specifically asked for feedback on that 
particular issue. And I would just ask you your thoughts on a 
discussion about which tax extenders should be part of the 
baseline, and do you think that is an appropriate discussion to 
have.
    Secretary LEW. Mr. Chairman, I actually think that when we 
do tax reform, coming out of tax reform, we would be better off 
if we had more of a sense of permanence because certainty about 
what is in the tax code and what isn't helps to contribute to--
more certainty is a better environment for investment.
    The challenge we have had is--with the extenders is there 
has been an ongoing debate about which ones to extend, and 
whether or not they are permanent. And we believe that the tax 
credits that we put in the baseline are items that have a 
different character.
    You know, we did propose, as a matter of policy, to make 
our--the research and experimentation tax credit permanent. So 
we totally agree that there are items that should be made 
permanent. And what is policy and what is baseline is something 
we are happy to talk about. Coming out of tax reform--and I 
will note that in the plan you put forward there are some very 
clear paths there which--you know, some of it overlaps 
considerably with what we are talking about----
    Chairman CAMP. Well, thank you. And I look forward to 
having that discussion with you on those issues.
    On another topic, a lot of people are angry about how 
complicated the tax code is, and I certainly hear that from 
people in my district who are hard-working taxpayers. You know, 
as we have talked about in this Committee, the code has 15 
different provisions for saving for college. The IRS has a 90-
page instruction booklet on that. The draft reform legislation 
includes the bipartisan proposal by Congressmen Davis and Black 
and to consolidate and modernize certain tax breaks.
    Now, my question to you is, are there certain opportunities 
to reform and simplify the code, particularly for parents 
trying to save for college education, our hard-working 
taxpayers, that we can accomplish without necessarily having to 
resolve the question about whether comprehensive reform should 
raise revenue or not?
    Secretary LEW. Mr. Chairman, there, I think, is always room 
for conversations about what we can do to make the tax code 
more efficient, more effective, and easier for people to use. I 
do think that, as we get to the conversation of comprehensive 
tax reform, it is inherently tied to the fundamental question 
of whether revenue is part of a long-term fiscal plan.
    On the question of the education provisions, you know, 
simplification is a desirable goal, but we also have different 
objectives that are achieved by different pieces of the code 
now. And I think the challenge, and a conversation we look 
forward to having with you, is how to get the balance right, so 
that we still are encouraging the kind of behavior that we 
think makes a difference for the economic future of both 
families and the country. And I know, in your plan, you know, 
there are changes, some of which we have questions about in 
terms of, like, the AOTC. And I think those are important 
questions for us to work through.
    Chairman CAMP. Yes, and I was obviously asking about not 
necessarily a comprehensive approach, but on individuals.
    But last, the Administration says that the business tax 
reform is long-run revenue neutral. And that strikes me as 
being inaccurate, given that, the way I read your budget, you 
are really proposing $150 billion business tax increase in the 
first decade to pay for infrastructure. And then the proposal 
would be revenue-neutral in years 2011 and beyond. I think, put 
another way, I think it could be described, if you looked at 
year one to the long run, it is really a $150 billion tax 
increase. Because I think, truly, to be revenue-neutral, you 
need to calculate the $150 billion as part of that approach. 
Don't the first 10 years count, as well?
    Secretary LEW. Mr. Chairman, the challenge is that the--any 
tax reform is going to throw off a certain amount of revenue at 
the beginning, as there is a transition that won't be there in 
the long run. So, if one were to take that revenue and lower 
rates permanently, it almost forces you to lose revenue after 
the introductory period. So, years 2011 through 2020 would 
start to lose revenue.
    There is a choice what to do with the one-time flows. You 
could reduce the deficit with it, and that is a perfectly 
legitimate decision to make, or you could do one-time 
expenditures. We believe that a one-time expenditure on 
building infrastructure would be good for the economic future 
of this country, and that is why we proposed it. I actually 
think that--when I talk to CEOs, one of the things that they 
raise with me, even before tax issues, is the need for 
infrastructure. So I actually think that there is support in 
the business community for the idea.
    Chairman CAMP. Yes. Outside of the motivation for it--but 
it is a $150 billion cost in the first decade. But I think--am 
I accurate in that it is revenue-neutral in years 2011 and 
beyond? So if you look at the entire time frame in question, it 
is actually not revenue-neutral to the tune of $150 billion----
    Secretary LEW. There is a dilemma, Mr. Chairman, that if 
you crank the savings, the revenues that come for one time when 
there are timing shifts, or when new provisions go into effect, 
into permanent rate changes, you will lose money in the out-
years. So you would have to step down rates as you got to year 
2011 to be truly revenue-neutral. We think our proposal is a 
better approach than that.
    Chairman CAMP. All right. Mr. Levin.
    Mr. LEVIN. Welcome. I welcome your statement and the 
President's actions on Ukraine. And I hope all of us will rally 
together to be supportive of the President's action.
    And I think the Chairman has started this off on the right 
step, if I might say so, so that we talk about your testimony 
and issues relating to that, including tax reform. I think that 
is the way we should be doing this hearing, and not wander off 
into other subjects. So let me ask you about two portions of 
your comprehensive testimony.
    On page four you say, ``Because long-term unemployment 
remains a pressing economic and social issue, the budget 
provides resources for new public-private partnerships to help 
get the long-term unemployed back into paying jobs.'' I think 
that is right on target. Just, if you would, state briefly the 
position of the Administration on extension of unemployment 
compensation to the long-term unemployed, now over two million 
who have lost their benefits.
    Secretary LEW. Congressman Levin, we strongly support the 
extension of long-term unemployment benefits. You know, as we 
look at the unemployment statistics, it is clear that short-
term unemployment is coming back down to a more normal range. 
But long-term unemployment is staying stubbornly high.
    That means there are people who are looking for work who 
can't find work, and we need to continue, as we have every time 
unemployment has been at these kinds of levels, respond with 
long-term unemployment benefits that phase out as the 
unemployment rate comes down.
    You know, I think the important thing for us to do is deal 
with the short-term need by extending long-term unemployment 
benefits, but also focus on what we do to get the economy 
growing faster, creating more jobs, which is why we focus on 
things like rebuilding our infrastructure, on skills training, 
and manufacturing hubs, the things that will be job-creators, 
to create opportunities for people.
    Mr. LEVIN. Good. My time will be up soon. I just wanted to 
refer on page two to your statement about non-defense 
discretionary funding levels. And I hope, during our 
discussion, you will have a chance to analyze this. Because I 
think the way we are headed, non-defense discretionary funding 
levels are now being lowered to levels that we haven't seen in 
decades.
    Secretary LEW. Congressman, that is definitely true. Part 
of--we have done an enormous amount of deficient reduction, 
most of it through spending reduction, most of it through 
discretionary spending reduction. I think that what we are 
trying to do in this budget is make a case that on both the 
defense and the non-defense side, in order to meet the needs of 
our Nation, we are going to have to find ways to hit our fiscal 
targets, while restoring the ability to invest in our future 
and defend the country.
    Mr. LEVIN. Thank you very much.
    Chairman CAMP. Mr. Brady is recognized.
    Mr. BRADY. Thank you, Mr. Chairman. Yesterday's decision by 
the White House to allow canceled insurance plans under the ACA 
to continue past the election, was that primarily a political 
decision?
    Secretary LEW. Congressman, as you know, that decision was 
a decision that was in the purview of the Department of HHS, 
not Treasury. I think I could speak generally to it, but not 
specifically.
    In general, our approach to the implementation has been to 
do everything we can to implement the Affordable Care Act in a 
smooth, effective way. Obviously, there were some bumps at the 
beginning. We have fixed the technical issues, and we are 
moving forward.
    Mr. BRADY. But this is not a technical issue. I mean, until 
recently, both you and the President described these plans as 
substandard. As these plans still viewed as substandard?
    Secretary LEW. Congressman, again, I am going to leave the 
discussion of----
    Mr. BRADY. Well, it is in your budget.
    Secretary LEW. Yes.
    Mr. BRADY. That is what we are here to talk about.
    Secretary LEW. And the goal in implementing the Affordable 
Care Act has been to make sure that we--the new plans can be in 
place----
    Mr. BRADY. But I guess my question is----
    Secretary LEW [continuing]. The exchanges can be in place, 
and we are working hard----
    Mr. BRADY. But what has changed? If these were substandard 
plans, as described by the President--and I believe he said, 
``Americans deserve better''--are they still viewed as 
substandard plans?
    Secretary LEW. You know, Congressman, I think we have been 
clear that we think that the right level of coverage is 
prescribed in the Affordable Care Act, and we have exchanges in 
place, both State and Federal, to offer that coverage. And we 
are going to work very hard to get people into those plans.
    Mr. BRADY. But, obviously, with the White House continuing 
to delay or change these, clearly, something is wrong or they 
would have left it in place.
    So, my question is, is this primarily a political decision? 
Because the substandard plans, as described by you and the 
White House a couple weeks ago haven't changed. So what has 
changed?
    Secretary LEW. We have been working since the enactment of 
the Affordable Care Act to, step by step, implement it as 
effectively as possible. I think the announcements yesterday 
are the last major changes that affect individuals and 
businesses. And it provides a clear path for the time forward--
--
    Mr. BRADY. Well, is----
    Secretary LEW [continuing]. And I think that clarity is 
important.
    Mr. BRADY. Obviously, for something to change, the view has 
to be that forcing people into the Affordable Care Act is more 
harmful to them than allowing them to stay on substandard 
plans, correct?
    Secretary LEW. No, I----
    Mr. BRADY. I mean it has to be one or the other.
    Secretary LEW. I think----
    Mr. BRADY. It is great as it is, or there is a problem with 
making them change plans.
    Secretary LEW. I think, through the Affordable Care Act, we 
are offering people choices. Those choices are good choices. 
People are signing up at very rapid rates----
    Mr. BRADY. If they are good--I don't mean to interrupt, but 
if they are good choices, why the change, if not for politics?
    Secretary LEW. I want to just repeat what I said, which is 
that we are looking at the implementation of the Affordable 
Care Act, to have it be as smooth as possible, and----
    Mr. BRADY. Are there any other delays being considered?
    Secretary LEW. I think that we have now put in place the 
major pieces for individuals and for businesses, and our goal 
is to----
    Mr. BRADY. No other changes? Can you commit to us, and 
people who are wondering, will there be any more delays of the 
ACA?
    Secretary LEW. Yes, we are going to continue to implement 
the Affordable Care Act in as effective a way as we can. And I 
am not aware of any other changes, but, obviously, I can't tell 
you what we will discover, going forward.
    Chairman CAMP. All right, thank you. Mr. Rangel.
    Mr. RANGEL. Thank you. I want to thank the Chairman for 
bringing up the important question of tax reform. And we 
haven't enjoyed too much of a bipartisan atmosphere here.
    Mr. Secretary, do you have any reason to believe that the 
Administration would be able to have some form of tax reform 
with the Republican Majority in the House, other than the 
bill--the draft, rather--being presented?
    Secretary LEW. Congressman Rangel, I actually believe that 
there is space for us to work together. I think we have made it 
clear that, on the business side, we think that there is a 
convergence of thinking. If you look at the draft bill that the 
Chairman put out, and the white paper that the President put 
out, there are a lot of areas, not of identical provisions, but 
overlap. I think we could work together on large pieces.
    As I said in my response to the Chairman, I think there is 
a fundamental question on individual reform that we disagree on 
whether it should be revenue-neutral, or whether it should 
contribute to the long-term fiscal plan.
    Mr. RANGEL. Let me reframe my question----
    Secretary LEW. And I think that is a bigger obstacle----
    Mr. RANGEL. It is absolutely no question that there is vast 
areas that we could be working together. My question to you, 
have you received any indication, other than the submission of 
a draft bill, that the Congress is going to work with the 
Administration toward any type of tax reform?
    Secretary LEW. Well, I have conversations with the Chairman 
of the Ways and Means Committee on a regular basis. I----
    Mr. RANGEL. And have you reached a conclusion that, with 
this conversation, it is possible that we could do something?
    Secretary LEW. I am a big believer in possibility. I think 
if people keep talking, anything is possible.
    Mr. RANGEL. Well, let me--you know, we have a lot of 
problems with unemployment. And the results of this has been a 
vast boom in homelessness. And I am glad to see that there is 
expansion and target of giving support to the homeless, as well 
as affordable housing. Is there any way for you to give to, us 
the congressional districts that are suffering with 
unemployment, as well as affordable housing, have you got that 
broken down to statistical data? I just can't believe that only 
Democrats are suffering.
    Secretary LEW. Congressman, we obviously don't do the 
unemployment data. The Treasury Department, the Department of 
Labor does. I am happy to have somebody go back and ask if it 
is available on a congressional district----
    Mr. RANGEL. I would really appreciate to see how many 
Americans are suffering because the Congress is not moving 
forward----
    Secretary LEW. Yes.
    Mr. RANGEL [continuing]. With support of legislation. I 
yield back the balance of my time.
    Chairman CAMP. Thank you. Mr. Tiberi.
    Mr. TIBERI. Mr. Lew, thank you for being here. I raised an 
issue last year, when you were before us, regarding a situation 
that--impacting many of my Ohio constituents. And I have yet to 
receive a reply. And so I was hoping to broach it with you 
again, and don't expect you to answer it today, but, if you 
could, make sure your staff replies.
    This week marks 2 years since the IRS issued a memorandum 
taxing aircraft management services as commercial aviation, 
subject to the ticket tax, instead of general aviation, subject 
to the fuel tax. This is contrary to congressional intent, with 
a law that was passed in 1970, and contrary to IRS practices 
for 40 years. This just changed 2 years ago, and we still 
haven't been able to get a reason as to why they have done 
this. So, about a month ago, a little over a month ago, I sent 
you a bipartisan letter on the issue, and I haven't heard back.
    Again, don't expect you to answer it today, but if you 
could flag it, and have----
    Secretary LEW. I will flag it, Congressman.
    Mr. TIBERI [continuing]. Your staff get back to us, because 
there is bipartisan concern about what is happening.
    Another issue I just want you to touch on briefly, if you 
could, is you have been around this town a long time, and you 
understand, like all of us understand, that the structural 
driver of our debt is mandatory spending. So, no matter what 
happens, and no matter what we do on the discretionary side, we 
continue to have an increase in mandatory spending. And we see 
that as far as the eye can see.
    And so, for my kids, we are doing them a disservice by not 
tackling what really is the true driver of our national debt. 
You, in the President's budget, arguably take a step backwards. 
You still do some provider cuts. But when are we, you and me--I 
am not making this a partisan issue--Democrats and Republicans, 
with leadership from the White House, going to start tackling 
through reforms, substantive reforms, the structural driver of 
our debt?
    Secretary LEW. Congressman, I think we should start by 
recognizing that we have actually done a lot. And I know we 
don't all agree on the Affordable Care Act. But I think we can 
agree that if we look at what has happened to health care costs 
in this country, the rate of growth is coming down. And I 
believe that the action taken in the Affordable Care Act is 
part of that. If health care costs come down, that has an 
enormous impact on what the direction and the slope of the 
growth of entitlement costs is. So we have done quite a lot.
    In our budget we have, as you noted, some more provider 
savings. But we also have some things that are tough policy, 
like income-related premiums, where, in bipartisan 
conversations, it has been one of the reforms that we have 
looked at. The President made clear when he put his proposal on 
chain CPI in the budget that he was doing it because that is 
something that we were--we understood was necessary to have a 
bipartisan discussion on an overall package. It was never his 
first choice.
    Since we are not in the middle of a bipartisan discussion, 
I wouldn't describe it as a step back. He has put his vision of 
where we are going forward. He has also said when there is--if 
there is an interest in the last offer, it is on the table.
    I think that, you know, we have to look at what we have 
accomplished. We have reduced the deficit by half. We are on a 
path where we are at 3 percent of GDP, going down to less than 
2 percent of GDP. I don't disagree that we have challenges on 
the revenue and the entitlement side, tax reform and 
entitlement reform, that we are going to need to deal with. I 
don't think we have the kind of emergency that we had, you 
know, a few years ago, when we were looking at deficits as a 
percentage of GDP that were an immediate problem. We have a 
challenge now where what we have to do is get a bipartisan 
spirit together so everything can be on the table. And when 
everything is on the table, I think we can do it.
    Chairman CAMP. All right. Thank you very much. Mr. 
McDermott.
    Mr. MCDERMOTT. Thank you, Mr. Chairman. Jack, I am pleased 
that you are here, talking about the budget. And I want to--
really have a minute or two, so I want to focus on one issue, 
and that is the whole issue of the minimum wage.
    It strikes me that, year after year, the basket of goods 
that people can buy has dropped over the course of time with 
the minimum wage. And I put this graph up there so that people 
could see where the minimum wage has been. Now, in 1938, when 
Charlie and I were born, or so, it was $.25 an hour, and has 
gradually risen to $7.25. And the value of its ability to buy, 
what--its value in buying has dropped. And you can see the red 
dots. You can't buy as much as you could with the minimum wage 
in the past.
    And the President--in the State of Washington we are at 
$9.19. We have already--we are leading the country. Oregon is 
right behind us at $8.85, I think. Talk about what the increase 
in the minimum wage means to the economy.
    Secretary LEW. Congressman, I think that you got to start 
with what the minimum wage means to a working family. Anyone 
who is working full-time in this country should have a wage 
that is at least at the poverty level. And that is what a 
minimum wage of $10.10 would do.
    I think we all know that somebody who is taking home wages 
at that level is spending the money as they earn it. So it is 
going straight into consumption, straight into demand, and that 
goes into the economy. We also know that we have a disparity of 
income in this country, and that for people at the high end, 
they are not--they shouldn't be spending all of their earnings, 
but it is not an environment where the money is finding its way 
all back into the economy. A lot of money is sitting on the 
sidelines.
    I think that raising the minimum wage right now would 
actually be good for the economy. You know, there are 
economists who have made arguments in both directions. You can 
have competing studies. I think that it is the right thing to 
do, and it is good for the economy. And our experience, when we 
have seen the increases in the minimum wages in states, or when 
the Federal Government raised the minimum wage in the 1990s, 
was that it was basically neutral, in terms of the economy. I 
think right now, given where we are, it would actually be 
helpful.
    Mr. MCDERMOTT. Is there any study any place that shows that 
raising the minimum wage depressed the economy?
    Secretary LEW. Look, there are all kinds of studies out 
there, so I don't want to say there are no studies showing. The 
studies that I find persuasive support the argument that I 
made.
    Mr. MCDERMOTT. Okay, I guess we all do that. I yield back 
the balance of my time.
    Chairman CAMP. Thank you. Mr. Reichert.
    Mr. REICHERT. Thank you, Mr. Chairman. Secretary Lew, in 
2009 the Administration economists predicted that, under the 
Administration's trillion-dollar stimulus plan, the 
unemployment rate would never rise above 8 percent, but we all 
know that is what happened. Unemployment rates soared above 8 
percent for 3 years. It has fallen to 6.6 percent, only 
because, I think, millions of people have stopped looking for 
work, and are no longer counted as officially unemployed.
    So, that is nowhere near the 5 percent unemployment rate 
the Administration said we would have by now. In fact, in your 
current budget, the Administration doesn't expect the 
unemployment rate to return to 5 percent, ever. The best we 
will ever see is 5.4. Why has this been the weakest recovery 
for jobs, ever?
    Secretary LEW. Congressman, when we came in in January, 
2009, we knew the economy was bad. But when the statistics were 
finalized as to how bad it was, the deep hole from that 
recession was much worse than anyone knew at the time. So I 
think you have to look at it in perspective of how bad the 
situation was. It was much worse than when those projections 
were made. It was much worse than anyone understood.
    I think if you look at the path of the recovery, given how 
bad it was when we started, bringing the unemployment rate into 
the mid-sixes is a lot of progress. We have said it is not 
enough----
    Mr. REICHERT. Excuse me, Mr. Secretary. We are now going on 
6 years. And why should we believe the Administration's 
policies in this budget will work any better to promote job 
creation and reduce unemployment?
    Secretary LEW. Well, I actually think that, if you look at 
the record of this Administration between the Recovery Act, and 
the Dodd-Frank Act, and the actions we took, we contributed in 
a very significant way to the recovery. And if you compare the 
United States to other developed economies, we have a stronger 
economy that is growing----
    Mr. REICHERT. Sir----
    Secretary LEW [continuing]. Better because we----
    Mr. REICHERT. Sir, the budget that you are presenting 
today, how can we have faith that it will speed up our economy?
    Secretary LEW. Well, I think the policies stand on their 
own. I am happy, when we have the time, to make the case on----
    Mr. REICHERT. I think the unemployment rate speaks for 
itself.
    Secretary LEW. But I think the record of where we are, 
compared to other developed economies, is a very compelling 
case.
    Mr. REICHERT. And I know my time is limited. Real quickly, 
can you assure us that by next week you can have to this 
Committee a request of Dave Camp, as the Chairman has repeated 
over and over, the emails and documents from Lois Lerner?
    Secretary LEW. You know, I know that there has--we have 
been back and forth on that issue, and there are conversations 
with the IRS on that. I am going to leave that to the 
conversations that we have had.
    Mr. REICHERT. Can you commit to providing those documents 
by the end of the week, next week?
    Secretary LEW. We have worked to respond to the 
Committee's----
    Mr. REICHERT. No commitment?
    Secretary LEW [continuing]. Requests, and we will continue 
to be cooperative----
    Mr. REICHERT. It is not happening, sir. Can you commit to 
make it happen without a deadline? Can you make it happen? Yes 
or no?
    Secretary LEW. Congressman, we will continue to work with 
this Committee----
    Mr. REICHERT. Can't do it? Okay. Thank you, I yield back.
    Chairman CAMP. Mr. Lewis.
    Mr. LEWIS. Thank you very much, Mr. Chairman. Thank you 
very much, Mr. Secretary, for being here. Many of us, Mr. 
Secretary, feel that it is our duty to ensure that the IRS has 
the 
tools it needs for taxpayer service and enforcement. In the 
past 
few years, the budget of the IRS is being reduced. I noticed in 

the President's budget it is getting a small increase. I 
believe the 
budget has been cut by $1 billion. The President's budget 
proposed $12.5 billion in funding for the IRS. It is small. It 
is necessary to increase the IRS budget. How can the IRS 
provide the service to the people we represent if the budget is 
steadily being cut and not increased? Reduce service? Reduce 
employees?
    Secretary LEW. Congressman, I agree 100 percent that the 
IRS needs resources to do its work for two reasons. First of 
all, it is just a bad business decision to not fund the IRS so 
that it can collect taxes effectively. And our system of 
voluntary compliance, depends on an effective IRS.
    You know, second, when individuals, citizens, call the IRS 
for help, they ought to be able to get somebody on the other 
end of the phone. And if you don't have people there, they 
can't get their phone calls answered. So I think funding the 
IRS is of critical importance. And we put in our budget, 
actually, a substantial increase to demonstrate how important 
we think it is, about a 7.5 percent increase.
    And I know it is a difficult time, given budget 
constraints. But I think the dollars put into the IRS pay off 
in many ways, not the least of which is we collect revenue that 
is due.
    Mr. LEWIS. Yes, sir. Worth it, and good investment.
    Secretary LEW. It is a good investment. And, you know, 
look. I know that it is not a good thing when people call and 
ask for advice or an interpretation and explanation, and nobody 
answers the phone. We owe people to be there to answer the 
phone.
    Mr. LEWIS. Well, thank you very much, Mr. Secretary. Mr. 
Chairman, I yield back.
    Chairman CAMP. Thank you. Dr. Boustany.
    Mr. BOUSTANY. Thank you, Mr. Chairman. Welcome, Secretary 
Lew. It is widely acknowledged, and we agree that a key 
economic policy is moving forward on trade, international trade 
with TPP and TTIP. And yet we have trade promotion authority 
legislation, specific legislation, bipartisan, bicameral, that 
has been introduced.
    Can you--it is widely acknowledged, too, that the 
Administration cabinet have not put in the political capital 
going forward to get this passed and--with the exception of 
perhaps Ambassador Froman, who has been vigorously, you know, 
pursuing this.
    Can you commit on the part of the Administration that this 
legislation, this specific legislation, H.R. 3830, the 
Bipartisan Congressional Trade Priorities Act, is a priority 
for this Administration, and to seek passage of this?
    Secretary LEW. Congressman, the President addressed this 
issue in his State of the Union very clearly.
    Mr. BOUSTANY. One sentence. And it really was a bland 
statement. Our trading partners are looking for a definitive 
statement, because they are not going to negotiate to finality 
on these agreements until we have trade promotion authority----
    Secretary LEW. I spend a considerable amount of my time 
talking to our trading partners. The finance ministers have a 
piece of these trade negotiations in the financial area. And I 
have spoken to most of my counterparts in TPP countries, trying 
to advance our interest in trade negotiations, because the test 
here is bringing back a TPP and a TTIP that meet our standard 
of a high-quality agreement.
    Mr. BOUSTANY. Absolutely.
    Secretary LEW. And we have worked--I have worked with the 
Chairman on issues related to the TPA. We do have a new 
Chairman on the Senate Finance Committee, he has expressed an 
interest in going and having some additional consultation on 
this. There is no question whether we support--we are putting a 
huge effort into----
    Mr. BOUSTANY. So all the work done in getting a bipartisan, 
bicameral agreement on this legislation is going to be for 
naught if we are basically starting over on it.
    Secretary LEW. Well, I am not going to speak for anyone 
else, in terms of whether it is starting over or working from 
where you are. That is really--you know, the Chairman is going 
to have to make his own judgement----
    Mr. BOUSTANY. So that Administration is not committed to 
this specific piece of legislation.
    Secretary LEW. I think we have made clear that we support 
TPA. We support TPA that addresses the critical issues. And we 
are available to work with Congress on this, and we want to get 
it done as quickly as possible.
    I don't think we should take our eye off of the trade 
negotiations themselves, because I don't agree with your 
characterization in terms of the progress made. I just this 
week had some conversations with some of our principal, you 
know, counterparts, where I have gotten concessions on 
important issues that advance the process.
    Mr. BOUSTANY. Well, I have no doubt that is the case, but--
--
    Secretary LEW. So we are working very hard on it.
    Mr. BOUSTANY. But to really get to the point of seeing 
these countries, our negotiating partners, making tough 
domestic political decisions to complete this, Congress is 
going to have to pass TPA, and we have specific legislation.
    Secretary LEW. Yes.
    Mr. BOUSTANY. It is ready to go. I don't understand why the 
Administration is not putting a full court press into this to 
get this----
    Secretary LEW. What I have said to our trading partners in 
my conversations is we are committed to getting these 
agreements finalized, we are committed to getting TPA. And we 
are committed to getting across the finish line on these 
things. Now let's get to work. And they get back to work.
    So, I don't think we should feed the idea that you can't 
make progress on TPP or TTIP.
    Chairman CAMP. All right, thank you.
    Mr. BOUSTANY. Thank you, Mr. Chairman.
    Chairman CAMP. The Committee stands in recess until 11:00.
    [Recess.]
    Chairman CAMP. The Committee will be in order. First of 
all, I want to publicly thank the Secretary for accommodating 
the schedule today. It has been rather disruptive, and we very 
much appreciate your making yourself available.
    Secretary LEW. My pleasure.
    Chairman CAMP. Mr. Neal is recognized.
    Mr. NEAL. Thank you, Mr. Chairman. Mr. Secretary, just a 
word of applause to your efforts on EITC, auto-IRA, and 
continued support for new markets tax credits. And then I want 
to use my time to give it to you for the purpose of talking 
about a much under-reported budget outlook from where we were 5 
years ago. So, perhaps you could lay out for the Committee 
where we were and where we are.
    Secretary LEW. Well, Congressman, you know, I don't--it is 
hard to exaggerate how much improvement we have seen from 5 
years ago until now. I mean we obviously saw an economy that 
was in freefall, and deficits that were growing, and the need 
to respond to that economic crisis, and deficits that were, you 
know, at historically high levels. We have cut the deficits in 
half. We have gotten the debt and the deficit as a percentage 
of GDP under control.
    And, clearly, we have challenges for the long term, and I 
think we all know that there are challenges that we are going 
to have to deal with over the next number of years. But we have 
actually reached a point where, unlike the last number of 
years, we don't have an urgent, immediate fiscal crisis. We 
have, actually, a very sustainable path for the period of time 
covered by this budget, which actually gives us an important 
opportunity to shift our attention to what does it take to 
build a strong, growing economy. What are the foundations of a 
growing economy? Which is why, in this budget, we focus so much 
on things like infrastructure and skills training and 
manufacturing hubs.
    And it doesn't mean that we don't have to do it in the 
context of a responsible fiscal policy. Obviously, we have in 
our budget the way we think you make the trade-offs to stay on 
the right fiscal path. It is a world of difference from what it 
was 5 years ago.
    And I think if you look at what--I was a little earlier 
talking about in terms of the comparison of the United States 
to other developed economies. We are in a world of better 
shape. We have a lot more to do before we are going to be 
satisfied. But when I meet with my international colleagues and 
I talk to them about struggling to get over 3 percent of GDP 
growth, they think getting to 1 percent would be more than they 
could imagine. And so, we are doing much better.
    Mr. NEAL. Thank you, Mr. Chairman.
    Chairman CAMP. All right----
    Mr. NEAL. Thank you, Mr. Secretary.
    Chairman CAMP. Thank you. I also will note that the 
Secretary has a hard stop at 12:00, noon.
    Mr. Roskam is recognized.
    Mr. ROSKAM. Thank you, Mr. Chairman. Mr. Secretary, I want 
to draw your attention to the interchange between your 
Department and Chairman Camp on the question of (c)(4)'s, 
subject of a lot of debate and discussion recently.
    The Chairman sent a letter to you and then your assistant 
secretary responded on February 25th. And in the response, the 
assistant secretary made four very--in my view--broad 
conclusions. And this is in paragraph three of the February 
25th letter. And I want to walk them through you, point out 
that--the claims I think are not meritorious.
    So, the letter claims that the proposed rule doesn't 
restrict any form of speech. And in terms of the proposed rule, 
we are talking about the Administration's proposed rule on 
(c)(4)'s. And yet, both the American Civil Liberties Union, and 
the Heritage Foundation have come to a very different 
conclusion on that. I mean--and the ACLU really comes out with 
an admonition. They say that it will--your rule, your proposed 
rule, ``will pose insurmountable compliance issues that go 
beyond practicality and raise First Amendment concerns of the 
highest order.''
    So, ironically, the Administration has been able to bring 
together the ACLU and the Heritage Foundation in criticism. But 
why would the Department be just so completely dismissive of 
that First Amendment claim, and just make an assertion, 
basically, in paragraph three of the letter? Do you stand by 
that assertion, or do you understand the level of concern that 
people have about the chilling effect on First Amendment----
    Secretary LEW. Congressman, I understand that these--this 
issue raises very strong feelings on both sides. I think it 
actually----
    Mr. ROSKAM. It is not the feelings I am concerned about. It 
is the merits of the argument. Do you think it encroaches on 
First Amendment?
    Secretary LEW. Look, I think that the challenge of defining 
what is and is not covered by this is very--it is a big 
challenge. And the reason we put out draft rules the way we did 
was to invite the kind of comment that we are getting.
    I think that we were very clear that this is an area where 
we need the benefit of a lot of views being expressed. I am not 
sure we envisioned 150,000 views being expressed, but we have 
gotten more comment on this than on any other rule that we have 
ever issued, and we are now looking at it. And we are going to 
take everything under advisement, and we are going to look at 
the issue. The IRS will continue to work on it. And we are very 
open to hearing what the pros and cons of different approaches 
here is.
    And this is something that, if it was easy to deal with, 
you know, probably would have been dealt with a long time ago. 
And I think we are at the beginning, not the end of the process 
of working our way through.
    Mr. ROSKAM. You can sense a bit of reluctance in my voice 
in that it seems the Department has made a decision already 
about the nature of the proposed rule. When the assistant 
secretary is making an assertion, and the assertion is it does 
not restrict any form of political speech--that is paragraph 
three, second or third sentence----
    Secretary LEW. Well, that is certainly our view. But the 
reason we took comment was to evaluate different perspectives.
    Mr. ROSKAM. Good, fair enough. I am glad to hear that you 
are open. Are you similarly open about the other claim?
    Chairman CAMP. I am afraid time has expired.
    Yes, 3 minutes goes quickly.
    Mr. ROSKAM [continuing]. Pretty quick. Thank you.
    Chairman CAMP. And we have other Members. Mr. Becerra.
    Mr. BECERRA. Thank you, Mr. Chairman. Mr. Secretary, thank 
you for your patience and in letting us return to inquire of 
you.
    Can I make a quick comment? First, thank you so much for a 
forward-looking budget, one that tries to invest in our people, 
that tries to build an economy that works for all Americans. 
There is a particular aspect of your budget that you submitted 
on behalf of the President that I wanted to touch on, because 
it is an issue that often escapes notice as an economic engine 
of growth, and that is immigration reform.
    Many of us know that if we are finally able to fix our 
broken immigration system, not only is it good for our national 
security, not only is it good for families that will no longer 
be torn apart, but it is also extremely good for our workers, 
for our businesses, and our economy, in general. You include 
within the budget immigration reform, and it scores as giving a 
net positive to the economy and to American businesses and 
workers. Can you comment on that?
    Secretary LEW. Congressman, I think that the immigration 
reform issue is one that there are many reasons to be for. It 
is the right thing to do, it is good for our economy, and it is 
who we are, as a people.
    The economic argument is, I think, undeniable. You look at 
the CBO estimates that were done on the immigration bills--bill 
that came out of the Senate. It makes clear that it grows the 
workforce, it grows payroll taxes, it helps to fund Social 
Security and Medicare. It has a material positive impact on the 
economy.
    And you look at our businesses in this country, whether it 
is the Fortune 500 or the high-tech firms, where innovation is 
greatest. A disproportionate number are founded by either 
immigrants or first-generation Americans. It has been the 
American story that we constantly replenish the, you know, 
innovative spirit of this country with people who come here in 
search of better life and in building a better America. And I 
think the economy reflects that, and the numbers reflect that.
    Mr. BECERRA. And most of what you have just said reflects 
American values. Maybe now, give me a sense in terms of the 
hard numbers. In terms of the budget, the hard numbers, what is 
the impact of including immigration reform in your budget?
    Secretary LEW. Congressman, I may have the exact number 
with me. If not, I will get back to you. The--you know, the 
estimates are that the deficit would be reduced by about $850 
billion, you know, over the long term, and the economy would 
grow by about $1.4 trillion over the next two decades. So we 
are talking about large impacts.
    Mr. BECERRA. So, if you were to take out immigration reform 
from your budget, we would lose that close to $1 trillion in 
deficit reduction, and over $1 trillion in economic growth.
    Secretary LEW. The effects of immigration reform, if you 
don't do immigration reform, would be removed. Our budget is a 
policy budget.
    Mr. BECERRA. Thank you very much. Mr. Chairman, I yield 
back.
    Chairman CAMP. Thank you. Mr. Gerlach.
    Mr. GERLACH. Thank you, Mr. Chairman. Secretary, thank you 
for coming today. I want to focus on your initial comments 
about Ukraine by way of disclosure. I co-chair the Ukraine 
Caucus here in the House, so I was very interested by your 
initial comments in your testimony.
    First of all, let me say thank you to the President and the 
Administration for this action they have taken on this 
executive order to block the assets and the property of a 
number of people. If you have the information now, great. If 
not, if you can, provide it to me. Do you have any estimates or 
approximations about how many people this particular executive 
order would impact, in terms of those people that have property 
or assets within the jurisdiction and the authority of the 
United States that can be blocked, or frozen? Do you have any 
rough estimates at this point what that is?
    Secretary LEW. Congressman, I don't have that right now. 
What we did this morning was we laid down a very clear 
framework. It is flexible, it is something that can be directed 
in a number of different directions. You know, it is aimed at 
identifying individuals or entities that are undermining 
democratic processes in Ukraine, not just Ukrainians, 
threatened the peace, security, and stability, and sovereignty 
of Ukraine that contribute to the misappropriation of funds, or 
that purport to assert authority inappropriately over the 
Ukraine. So it gives us a tool that is very flexible to work 
with so that we can respond in a proportional way to the 
situation, as it develops.
    Mr. GERLACH. Okay. Do you get a sense, based on your 
discussions within the Administration, do you get a sense yet 
about the European Union partners of ours, whether they are 
going to be willing to move forward with aggressive sanctions 
the way is necessary, and I think is going to be continued to 
be debated and discussed here in Congress and with the 
Administration? Do you get a sense that the European Union 
countries----
    Secretary LEW. Well----
    Mr. GERLACH [continuing]. Are going to also be as 
aggressive as necessary with this situation?
    Secretary LEW. The European Union just the other day, 
yesterday, took action, really, following on what we did almost 
immediately, when our financial center put on a watch list 
individuals who might be moving Ukrainian money inappropriately 
out of government and public accounts.
    The--yesterday the European Union did designate a number of 
Ukrainians. I know the leaders in Europe are meeting today, 
even while this hearing is going on. We have obviously made the 
case for solidarity in dealing with this issue in a very united 
way. And I--just to reference my own comments this morning is 
one of the reasons we think it is so important that the IMF 
issue, the IMF reform issue, is relevant, that is one of the 
things that we need to do to show that we have the leadership 
role, or we can press others to do what they need to do at the 
IMF, and to speak with a real voice of leadership on this 
issue.
    Mr. GERLACH. Thank you.
    Chairman CAMP. Thank you. Mr. Doggett.
    Mr. DOGGETT. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary. On the question of further changes in the way we tax 
international transactions, you have a number of new proposals 
in your budget. You refer in the budget documents to stateless 
income, to tax havens, to incentives that are in our tax code, 
to export jobs overseas. In terms of measuring the extent of 
the change that needs to occur in the short term, if I read the 
documents correctly, you say that over the next 10 years there 
are about $276 billion in additional revenues that should be in 
our treasury that are not, as a result of these loopholes and 
special provisions.
    Secretary LEW. Congressman, I have to go back and check the 
numbers to see if that is exactly right. But it is a 
significant impact. And it reflects, really, what we think is 
both an important policy issue, and something that there should 
be bipartisan agreement on, which is that our tax code should 
not encourage the export of American jobs. We need to close 
down the provisions that offer preferential treatment for those 
kinds of practices.
    Mr. DOGGETT. There is one new provision there, and I 
believe you discussed it with Chairman Camp. He has a provision 
in his proposal also that would use the transition monies in 
changing the system overall to fund our serious problems with 
highway infrastructure.
    I know the issue of a temporary tax holiday has come up 
several times in the past, and the Administration has opposed 
that. When I asked President Obama about it when he was here at 
the Capitol last year, he said we have looked at the math and 
it just doesn't work to have a temporary tax holiday, as 
distinguished from perhaps some future transition. Does the 
Administration continue to oppose this unwise--any temporary 
tax holiday or short-term tax holiday of the type we had in 
2004 to fund transportation or anything else?
    Secretary LEW. Congressman, we think that the proposal that 
the President made in July and that is now in our budget is the 
right way to do it, which is to have a transition to a new 
reform tax system, which is very different from a one-time tax 
holiday. We think the scoring would be different. We think the 
policy is different. We think that is the right way to do it.
    And I hope we can work together on an approach to business 
tax reform, where we can get this done. And we are very open to 
that conversation, and would love to engage in it.
    Mr. DOGGETT. Thank you very much.
    Chairman CAMP. Thank you. Mr. Smith.
    Mr. SMITH. Thank you, Mr. Chairman, and thank you, 
Secretary Lew, for taking the time to be here today. I would 
like to associate myself briefly with Mr. Boustany's comments 
and concerns relating to the various issues. But while 
countries such as Japan are taking positive steps to open up to 
more U.S. agriculture, it is vital we have trade promotion 
opportunities, actually, to ensure we get the strongest 
assurances our trade partners in Asia and Europe will not 
continue to use unscientific barriers to discriminate against 
American producers. And I hope that we can work together to 
address these issues.
    Relating to the budget more specifically, though, I hope 
that, with tax reform, we can help more hard-working taxpayers 
than just corporations filing under the C-corporation 
designation. And also, looking at various other things, I know 
that in your statement you indicated the President's budget 
adheres to agreed-to discretionary spending caps, but also 
includes an additional $56 billion discretionary spending fund 
above and beyond that. Can you explain why that occurred?
    Secretary LEW. Yes, Congressman. It was very important that 
there was a budget agreement in December, very important that 
Congress passed appropriation bills in January, and that we are 
on a path--we are including the enactment of borrowing 
authority. We are doing business in a more orderly way, and it 
is good for the economy, it is good for the country.
    The President laid out a budget within the boundaries of 
the budget agreement. He also said that, as a matter of policy, 
just as the December budget agreement had a way of paying for 
increased discretionary resources with other changes, we need 
to continue down that path because as we go forward we don't 
have the right discretionary levels. We are going to need 
things to invest in, both our economy and our security. And--
but we have to pay for it. And he offered his proposal of how 
to do that. He was very clear that he has a budget within the 
caps, and then he has things that he would propose as policy 
changes, where we hope we can get that conversation going. 
Obviously, if we can't agree on how to pay for it, we are left 
with lower spending levels.
    Mr. SMITH. Well, I would hope that with the $17 trillion 
debt that we are facing, this is an agreed-upon situation or 
analysis, that we can pursue policies that can help reverse 
that. And thank you.
    Secretary LEW. The only thing I would add, Congressman, is 
that when the Budget Control Act was enacted, it was set up for 
sequestration not to happen. It was set up to have an overall 
budget agreement make sequestration unnecessary. And the 
President's budget really is consistent with that, saying, 
``Here is another way to back out some of those cuts that we 
did not ever really think were right, nor, on a bipartisan 
basis, did anyone say they wanted at the time.''
    Mr. SMITH. Well, and I hope that, moving forward, we can 
work together on some fantastic opportunities to grow our 
economy, tax reform--comprehensive tax reform--being a 
priority.
    Secretary LEW. Look forward to working together.
    Mr. SMITH. Thank you.
    Chairman CAMP. Thank you. Mr. Blumenauer.
    Mr. BLUMENAUER. Thank you, Mr. Chairman. Mr. Lew, we 
appreciate your taking time to join us and visit us. I 
appreciate the Chairman, in his work dealing with tax reform, 
carved out some space for infrastructure investment. I also 
appreciate the strong words that we have had from the President 
supporting infrastructure. It was part of the Affordable--the 
Recovery Act. It has been referenced, going forward. And that 
there is a proposal that has been included.
    In the off chance that neither your proposal or the 
Chairman's proposal are enacted in the next six months, we are 
facing a deadline. We have basically exhausted the trust fund. 
We have contracts that are not going to be--that the Department 
of Transportation is going to be withholding money this summer. 
States and localities, as a result, are going to be pulling 
back this spring. We are facing a 30 percent reduction over the 
next 10 years. And we need a stable, long-term, consistent 
source of funding.
    Now, I am not suggesting that the Administration dive in to 
another area. You will fight for your proposal, and we will see 
what happens. But I would hope that we would be--that there is 
a possibility of being open to a proposal that I have 
introduced that is supported by the AFL-CIO, the U.S. Chamber 
of Commerce, the AAA, truckers, contractors, local government, 
a number of individual unions, professional groups, to raise 
the gas tax to be able to replenish it.
    Would the Administration, if their proposal is not 
accepted, if the Chairman's proposal is not enacted, would the 
Administration be open to working with Congress on the first 
gas tax increase in 21 years? Would you entertain that, at 
least?
    Secretary LEW. Congressman, I also was pleased to see in 
the Chairman's tax reform proposal that he was, as we are, 
looking for a way to fund infrastructure. We have tried in our 
budgets a number of different approaches to engage in a 
serious, bipartisan conversation about how to fund something 
that I think we all agree we need to do, which is maintain, you 
know, our infrastructure for economic growth in the future.
    We have put in our budget what we think is the best way to 
deal with it, and we are going to continue to advocate for 
that. But if you look at the budget proposals we have put in in 
past years, we have said we remain available to work with 
Congress on a bipartisan basis to find a mutually acceptable 
funding mechanism. And that remains at the core of our belief 
today.
    Mr. BLUMENAUER. Thank you, Mr. Lew. Mr. Chairman, I would 
hope that some time in the near future we might be able to have 
a hearing on transportation finance, since that is our 
jurisdiction. The clock is ticking, and I think it would be 
enlightening to at least hear, so we can prepare for our 
responsibilities later in the spring.
    Chairman CAMP. I know we are looking and working with you 
on maybe trying to do something in that vein in the near 
future.
    Mr. BLUMENAUER. Super. Thank you very much, Mr. Chairman.
    Chairman CAMP. Ms. Jenkins is recognized.
    Ms. JENKINS. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary, for being here.
    This year, President Obama chose to unveil his budget--late 
again--at a D.C. elementary school. And in his remarks he said, 
``My budget is designed with their generation and future 
generations in mind. And at a time when our deficits have been 
cut in half, it allows us to meet our obligations for future 
generations without leaving them a mountain of debt.'' That is 
the end of the quote.
    However, just last month, CBO said the deficit will start 
to grow again in just 2 years. By 2022, we will again be 
running trillion-dollar deficits, even though we will be taking 
in historically large amounts of revenue. And this is just 
because spending will grow twice as much as revenue. Over the 
next 10 years we will add $10 trillion more to our national 
debt, for a grand total of $27 trillion. A quote from CBO said 
this, ``Such large and growing Federal debt could have serious 
negative consequences, including restraining economic growth in 
the long term.''
    In the latest forecast, CBO projected that our Nation's 
growth potential over the next 10 years will be much slower 
than the average since 1950. Contributing to this lost 
potential, CBO states, ``The economic and incentives caused by 
Federal tax and spending policies that are expected to keep 
hours worked and output lower than would be otherwise 
expected.'' CBO now expects Federal budget deficits between 
2014 and 2023 to be about 7.3 trillion, which is a trillion 
larger than predicted last year, due primarily to weak growth.
    If the President's budget were to become law, even by the 
President's own number crunchers our Nations' debt would still 
reach $25 trillion. It would add 8.3 trillion to the debt, and 
hike taxes by over a trillion, and fails to ever reach balance. 
Not too long ago, back in 2008, when candidate Obama criticized 
his predecessor as unpatriotic and irresponsible for the debt 
growing from 5 trillion to 9 trillion in his 8 years in office. 
In his words--and I quote--``He is taking out a credit card 
from the Bank of China in the name of our children.'' End 
quote.
    Can you help explain to us, and square the words of 
candidate Obama with President Obama?
    Secretary LEW. Congresswoman, you know, as somebody who was 
director of OMB for the only 3 years in modern times when we 
ran a surplus, I understand the value of fiscal policy that 
puts this country in a solid place. You know, when I left OMB 
in 2001, there was a $5 trillion surplus over the next 10 years 
being projected. When I came back to OMB, we had a huge deficit 
because the money had been spent on tax cuts we couldn't 
afford, on wars we didn't pay for, and then we had the worst 
financial crisis since the Great Depression.
    Ms. JENKINS. But under this budget----
    Secretary LEW. President Obama came into office----
    Ms. JENKINS. Since our time is limited, under this budget, 
what year will the Federal Government stop taking in--or stop 
spending more money than they take in?
    Secretary LEW. Congresswoman, as I have said----
    Ms. JENKINS. Do we have a year?
    Secretary LEW. This budget----
    Ms. JENKINS. Or is it true that in this budget we never, 
ever can point to a point in time where we will stop spending 
more money than we take in?
    Secretary LEW. If you look at the----
    Ms. JENKINS. I am just asking. Is that true?
    Secretary LEW. If you look at the period covered by this 
budget----
    Ms. JENKINS. Is that true or false?
    Secretary LEW [continuing]. It puts the deficit into a 
place where it is sustainable. When we came into office, it was 
out of control. We have more work to do, going forward. But 
this budget is----
    Ms. JENKINS. So it never, ever balances, ever?
    Secretary LEW. It gets the--it takes the deficit down to 
less than 2 percent of GDP----
    Chairman CAMP. All right, time has expired. Mr. Davis.
    Mr. DAVIS. Thank you, Mr. Chairman. You know, I commend the 
President for his focus on increasing work and opportunity 
within the budget. And I want to highlight the expansion of the 
earned income tax credit and exclusion of Pell income from 
education credit calculations as critical changes needed. I 
have advanced similar legislation solutions for years, and am 
pleased to see the Administration embrace these changes.
    For years, I have actively promoted expanding the earned 
income tax credit for single workers within my fatherhood bill. 
I heard from my constituents years ago that the EITC was not 
helping single men as it could and should, and the research 
supports their concerns. My fatherhood bill originally focused 
on expanding the EITC for non-custodial fathers who are current 
on their child care obligations. In the last few years, we have 
expanded our focus to include all single workers, including 
those without children, given the strong positive effects on 
lowering the unemployment rates, increasing marriage rates, and 
reducing incarceration rates for single men.
    The EITC has been one of the most effective anti-poverty 
programs in our tax code, which is why there is a long history 
of bipartisan support. Indeed, the largest expansions were led 
by conservative Republicans such as the former Majority leader 
Dick Armey. I applaud the President for incentivizing work 
through an expansion of the EITC, and promise to work with the 
Administration to do so.
    Further, I am extremely happy to see the improvements to 
how the code handles Pell grants. I have championed this fix 
for years, because it will make college more affordable for our 
lowest-income students. Mr. Secretary, could you comment on how 
these policies would improve opportunity and decrease policy?
    Secretary LEW. Congressman, I think I agree 100 percent 
that the earned income tax credit has been one of the most 
important policies we have had in the last quarter-century to 
deal with both incentives to work and ending poverty. I have 
had the privilege of working on it since the Ford 
Administration. And it has been expanded in Democratic and 
Republican Administrations by Democratic and Republican 
Congresses because it works. So, we have put a proposal on the 
table to deal with a population that is not now getting as much 
benefit from it as they might. And we think it is an important 
policy, and we look forward to working with the Congress on it.
    In terms of educational opportunity, we know that the 
difference between opportunities in life are dramatic for 
people who have and have not had a higher education. So, 
whether it is Pell grants or AOTC, our budget is aimed at 
giving every American a chance to succeed in this economy.
    Chairman CAMP. All right, thank you. Thank you. Mr. Schock 
is recognized.
    Mr. SCHOCK. Thank you. Mr. Lew, I would like to draw your 
attention to an Internal Revenue Service memorandum that our 
Committee got permission from the taxpayer yesterday to use 
before the Committee. This is the first victim of the IRS's 
targeting of Tea Party groups dating back to February of 2010. 
This is the memorandum that was used to transfer this case to 
Washington, D.C. It was an application by the Albuquerque Tea 
Party for 501(c)(4) status.
    On this memorandum the folks in Cincinnati could have 
checked box A when transferring this case, which says this 
application involves an issue in which there is inadequate 
published precedent or rules necessary. Obviously, that is what 
they check when there is confusion about precedent. But 
Cincinnati did not check that box, Mr. Lew. They checked box B, 
and then wrote in the reason, which was ``per an email response 
from Holly Paz on February 26th of 2010, this application 
should be transferred to D.C., due to the potential for media 
interest.''
    Sir, this is the first of hundreds of Tea Party cases that 
were held up not in Cincinnati, but rather, based on this 
memorandum and hundreds of others that we have, were held up by 
directives from Washington, D.C., specifically. This conflicts, 
obviously, with the Administration's assertion, when this news 
first broke, that nobody in Washington, D.C.'s IRS office or 
the Administration knew anything about it, that it was solely 
isolated to Cincinnati.
    As you know, Holly Paz is second-in-command--or was--at the 
IRS for exempt organizations. She has since resigned. The first 
in command, Lois Lerner, has pled the Fifth. And this Committee 
has struggled to get the information from the IRS, particularly 
the emails of Lois Lerner. And I hope that you can confirm with 
this Committee you are going to do everything in your power to 
get us 100 percent of Lois Lerner's emails. Right now we have 
gotten a couple percent of Lois Lerner's emails. Made very 
difficult, quite frankly, to reach some determination.
    My question, Mr. Lew, is this. The rule that you have put 
out in November states this rule is necessary because there was 
some confusion within the IRS about how to handle these Tea 
Party--these groups' tax-exempt status. But, sir, this email, 
or this memorandum and subsequent emails, suggest otherwise. 
This suggests that, throughout 2009 and early 2010, hundreds of 
these similar-like Tea Party applications were approved, 
screened, went through the normal process, and it wasn't until 
Washington, D.C. got involved through a directive via email to 
Cincinnati that instructed them to uphold or to withhold 
approval, and rather, to start batching these applications.
    So, why the inconsistency between D.C. really being the 
directive, versus Cincinnati making this decision on their own?
    Secretary LEW. Mr. Chairman, do I have the time to----
    Chairman CAMP. If you could, make a brief answer.
    Secretary LEW. Congressman, first, to--I am reading this 
piece of paper that has been put in front of me. And just to be 
clear, what it says is that the application should be 
transferred to the EO technical, which is what is standard 
procedure when an office doesn't know what to do and it is 
complicated. So it doesn't say exactly what you described.
    Second----
    Mr. SCHOCK. Well----
    Secretary LEW [continuing]. The issue of ambiguity and 
confusion in the rules, it was not my observation alone. The IG 
that did a report on this reached that conclusion and said it 
was necessary to clarify it. So it is not--I don't think it is 
just a question of my saying that there is ambiguity. There was 
a finding by the IG, which is one of the things that triggered 
the review that led to the proposal.
    And, as I have said earlier, we know that this is a 
complicated area, we invited comment. It was not even a full 
proposed rule. It was a draft of a proposed rule saying we need 
comment to make sure we get this right. We got 150,000 
comments, and we are working our way through them.
    Mr. SCHOCK. Lerner's emails?
    Chairman CAMP. Thank you. Time has expired. I would just 
say, Mr. Secretary, we don't have all the documents. And I have 
sought your assistance in trying to make sure that we get all 
the documents in the future.
    Mr. Thompson is recognized.
    Mr. THOMPSON. Thank you, Mr. Chairman. Mr. Secretary, thank 
you very much for being here. I have just one question, given 
the time constraints, and that is on the provision in the 
President's budget that repeals the LIFO tax provision, Last In 
First Out. And it is my understanding that it doesn't just end 
the LIFO opportunities or practices, but it does it somewhat 
retroactively, where it reaches back and requires a repayment 
from companies, large and small, of the benefits that they have 
received from LIFO over the years. Is that correct?
    Secretary LEW. Congressman, the policy is to shift so that 
we make sure we don't end up with a permanent avoidance of 
taxation because the accounting system permits the increase in 
value of inventory to go--to not be captured.
    If you sell something that you made for $1 at $10, and the 
last one costs you $10 to make, and you deduct $10, there is no 
taxation----
    Mr. THOMPSON. I understand how the LIFO practice works. But 
my interest is in the retroactivity of the provision in the 
President's budget. I don't know how it can be fair where you 
could go back 60 or 70 years and basically re-assess someone 
and their tax liability. It would be like your tax bracket 
going up and we go back 10 years and require you to pay that 
under that new provision.
    Secretary LEW. So the policy repeals LIFO, so that has the 
effect of treating it as an accounting change, which is 
reversed. And that is how it was designed. I would be happy to 
follow up with you on your concerns about the impact of that.
    Mr. THOMPSON. Well, I have talked to you about it in the 
past, because it is not the first time that it showed up. And I 
am--I would be honored to be able to sit and talk to you, and 
explain how this particular provision would be harmful to many 
constituents in my district, but in other districts, as well. 
But it just seems grossly unfair to change the taxing 
provisions and then go back 60 years and collect on that.
    If that happens, this is going to have the effect of 
putting people out of business, and that is not maybe they will 
have a tough time, maybe they won't be able to make it, but it 
is going to be--have a crippling effect on a pretty important 
part of our economy.
    Secretary LEW. Yes. I don't think we agree that the impact 
would be as you have described it, but I am happy to follow up.
    Mr. THOMPSON. Great, thank you very much. I yield back, Mr. 
Chairman.
    Chairman CAMP. Thank you. And, Mr. Thompson, I would just 
say I appreciate the concerns you are raising, and that is why 
the draft--at least the discussion draft--pairs that with a 
lower rate for manufacturers on that.
    Mr. Buchanan.
    Mr. BUCHANAN. Yes. Mr. Secretary, thanks for being here 
today. I do a lot of town halls. A lot of us do. I got here in 
2007. And the budget that you were proposing today, I think the 
biggest issue that comes out of those meetings is debt, 
deficit, and spending. But the budget we are proposing today, 
the revenues are going to be what, and the spending is going to 
be what, for the record? Just quickly. I am not asking you per 
dime, I mean, but----
    Secretary LEW. No, I understand. But I don't want to give 
you a number and have it be wrong.
    Mr. BUCHANAN. Anyway, let me just say this, because we got 
3 minutes. I think it is about $700,000, $800,000 difference.
    Here is my point I am trying to make. You had mentioned 
that we made some progress, we have cut the deficit in half, 
$1.3 trillion down to $700 billion, or something like that. But 
the big concern is--and you mentioned about 2 percent of the 
GDP and that is all the deficit is going to go up. But I got 
here in 2007, and I have been hearing it for the last 7 or 8 
years. The fact of the matter is, in that year, the debt was 
$8.5 trillion, roughly. We were running a $130 billion deficit. 
Today it is $17 trillion, quickly going on, by the time this 
Administration finishes up, going to be $20 trillion in debt. 
If you look at the normal cost of money--this is what I hear 
every day--normal cost of money is 4 or 5 percent. You could 
have a trillion dollars in interest, which is 30 percent of the 
whole budget, in terms of reduction.
    And so, I say this to you because I was born in Detroit, I 
grew up in the Detroit area. Detroit is bankrupt. And I am 
concerned about the future of our country. What I hear from 
business people in my community and other places is that they 
are concerned about the uncertainty because of the debt and 
deficit spending.
    So, I guess I just ask you, what would you tell my 
constituents? When I have to deal with this everywhere, they 
say nowhere else on the planet do they do what they do in 
Washington. In the State of Florida, we had less revenues, we 
made the adjustments. But here, we are leaving a bankrupt 
country to our children if we don't change the way we do 
business. And it seems like the Administration has to lead on 
this. Congress has got a responsibility. And I will say it is 
not just Democrats, it is Republicans, if you look over 50 
years. But if we don't change this, we are going to use--it is 
going to be devastating to our children and grandchildren.
    So, I would like to have you look at the debt long-term 
deficit, as well, but what would be your comments to my 
constituents?
    Secretary LEW. Congressman, you know, as I said earlier, as 
somebody who was the budget director for 3 years when we ran a 
surplus, we balanced the budgets, we ran a surplus, I took a 
lot of pride in having accomplished that. It was policies that 
were enacted between 2001 and 2008 that dug a hole that got--we 
didn't have a surplus any more, and then we had the worst 
economic crisis since the Great Depression.
    So, now we do have a deficit of $649 billion in 2014. But 
the numbers, as a percentage of GDP, really matter. During the 
same period, from----
    Mr. BUCHANAN. Let me just say I know what you are saying. 
You don't think the debt matters. I mean $17 trillion, going to 
$20 trillion----
    Secretary LEW. No, but Congressman, all----
    Mr. BUCHANAN. You don't think--that is what--I am telling 
you what people are telling me. They are concerned about the 
future----
    Secretary LEW. Yes.
    Mr. BUCHANAN [continuing]. For Medicare, Social Security, 
and their children when they see this debt continue to 
skyrocket. And I think that is a game that has been played, 
frankly, in Washington with Republicans and Democrats over the 
last 50 years. It is that debt that has got everybody 
concerned.
    Chairman CAMP. Yes, and if you could, just answer briefly.
    Secretary LEW. Yes. We have cut the deficit in half, and we 
have the deficit in the last year, as a percentage of GDP, 
under 2 percent. GDP will grow from $17 billion to $27 billion 
over that period. So nominal numbers and percentage of GDP are 
very--both important numbers. And the percentage of GDP shows 
the progress we have made.
    So, it is--I know it is hard to explain because GDP is a 
complicated concept. But it is a much bigger economy in----
    Mr. BUCHANAN. Come to Sarasota, Florida and do a town hall 
with me, and we will see what we got.
    Chairman CAMP. All right. Mr. Reed.
    Mr. REED. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary, for being here today. I wanted to go into--you made 
a comment that we are kind of through this emergency-type--we 
now have a crisis looming over our head in some of your 
testimony. And one of the things that I am very concerned about 
is the overall entitlement bomb that I see going off with 
Medicare insolvency, Social Security insolvency, and those are 
long-term issues.
    But something that really touched me last night when I was 
reading the budget and looking through your written testimony 
is I saw no reference to Social Security disability and the 
insolvency that is going to hit in January 2016, with the 
Social Security disability program. In fact, in your testimony, 
the only reference to Social Security was in relationship to 
its relationship with immigration reform.
    So, my concern is, if the White House doesn't see this 
impending $35 billion problem in 2016, where Social Security 
disability recipients are going to receive a 20 percent cut in 
their payments monthly as a result of this insolvency with the 
disability trust fund, that is--I care about those people. 
Those are millions of people that are going to wake up, and the 
best we are doing right now in Washington, D.C. is to say we 
are not even putting it in our budget, we are not even going to 
address it as a crisis, as an impending entitlement bomb going 
off.
    To me, it is the canary in the coal mine, that if we don't 
get our act together--and I encourage the White House to please 
highlight this issue and come up with a solution, because I am 
not seeing it in the budget, I don't see it in your testimony. 
And I don't want to look at a Social Security disability 
recipient, as I have in town halls, and said, ``I am trying to 
fix it. But I will tell you, Washington, D.C. is not 
listening.''
    Secretary LEW. Congressman----
    Mr. REED. What do you have to offer?
    Secretary LEW [continuing]. I totally agree that we need to 
address the situation of the Social Security disability trust 
fund. And we do--have said--I have said that there is only one 
solution the technical experts believe can work in the time 
frame between now and 2016, and that is a reallocation of the 
tax rate, as we have done in the past.
    At the same time, we have proposed in our budget program 
integrity provisions that will make sure that we do an even 
better job making sure that only people who are qualified get 
disability payments. We will clear out the backlogs of reviews. 
And we need to work together on that, and we look forward to 
working together on it. It is something we need to deal with--
--
    Mr. REED. I wholeheartedly agree with you, we need to work 
together.
    Secretary LEW [continuing]. 2016 is close. And we do have a 
little more time----
    Mr. REED. The problem with reallocating the tax is aren't 
you then hurting the actual--the solvency of Social Security 
itself, by shortening that period of time?
    Secretary LEW. Given the difference in size between the 
trust funds, it has a very small impact on the duration of----
    Mr. REED. So you are willing to sacrifice the viability of 
Social Security itself----
    Secretary LEW. I am just saying that none of the policies 
you could put in place would have an effect in time for 2016. 
Long term policies take a long time to have effect. I think 
technical experts on both sides agree that if you don't want to 
cut benefits, which none of us want to do on disability, there 
is going to need to be a reallocation. And we look forward to 
working together----
    Mr. REED. But, just so I am clear, so the White House 
position is--to the fix--is that--for this--is to reallocate 
the tax?
    Secretary LEW. Well, in the short term. But I said we also 
have program integrity provisions in place, and we look forward 
to working together to take a look at the longer-term issues in 
disability.
    Mr. REED. Appreciate that.
    Chairman CAMP. Thank you.
    Mr. REED. Thank you.
    Chairman CAMP. Time has expired. The Secretary has been 
very accommodating by coming back today, and I know he has to 
leave directly at noon. So we will have one more question, a 3-
minute period, from Mr. Young, and then we will conclude.
    Mr. YOUNG. Thank you. Mr. Secretary, in your opening 
statement you indicated that last year the President put 
forward his budget as part of a balanced compromise. And this 
year's budget instead reflects the President's vision of a best 
path forward. Are bipartisan compromises not part of a best 
path forward?
    Secretary LEW. Congressman, as somebody who has spent most 
of my professional life molding bipartisan compromises--bless 
you--I very much believe that bipartisan compromises are in the 
best interest of this country. But you usually start with 
different positions that get worked out.
    What we did in last year's budget was we kind of cut to the 
chase to say we almost had an agreement, let's finish it. 
Frankly, there wasn't a lot of take-up on our proposal. It was 
out there, and we didn't get it done. At some point you have to 
go back and say we have our view, you have your view, and then 
we work for a bipartisan compromise.
    Mr. YOUNG. I see. So your view, your best path forward, as 
indicative in this budget, presumably includes never bringing 
our Nation's accounts into balance?
    Secretary LEW. Well, Congressman, I think, as I have said 
before, we do an enormous amount on this budget to put our 
fiscal house in order and keep it in order. I think that, you 
know, the challenge we had in 2009 was gargantuan. We have cut 
the deficit in half. We are on a path towards a 2 percent of 
GDP----
    Mr. YOUNG. We are looking at a path forward here in the 
budget, not 2001 to 2008. Interesting segment of time you 
choose. But the path forward would indicate that it never comes 
into balance. This doesn't appear to me to be a budget, as 
popularly understood by, say, the business community or rank-
and-file Americans. Instead, it is, for those of us who 
celebrate Christmas, a Christmas list.
    If you could indicate what year it comes into balance and 
how you intend to bring it into balance, it would be easier to 
negotiate between our figures, balancing in 10 years in the 
past, and your figures, balancing currently at infinity. Then 
bipartisan compromise, as I see it, could happen. What say you, 
sir?
    Secretary LEW. So, Congressman, you know, we came very 
close to a bipartisan agreement along the lines of last year's 
budget. That didn't happen. But that didn't come to balance in 
10 years. It was not--there was not a negotiation about coming 
to balance in 10 years.
    We believe that the urgent need right now is to make sure 
the engine of growth in this country is kicked into high gear. 
And we have put together a budget that has a responsible fiscal 
policy and a growth strategy, and we look forward to working in 
a bipartisan way to reach a consensus.
    Mr. YOUNG. If this is your optimal path forward, the 
country deserves better. History will remember you as the 
Treasury Secretary who presided over a period when plans were 
not put forward as our Nation started to drown in a sea of red 
ink. And I would not want to have that sort of legacy.
    It is regrettable that you won't work with us to make the 
largest programs of government sustainable. Thank you so much 
for coming here today and offering your perspective on why you 
haven't done that.
    Secretary LEW. Congressman, I would just point out that, as 
the only living OMB director in history to have a surplus for 3 
years, I am proud of my record.
    Mr. YOUNG. Thank you, sir. Thank you for your service. I 
yield back.
    Chairman CAMP. Thank you. Without objection, all Members 
may submit questions for the record.
    Again, I want to thank the Secretary for his time this 
morning, and for accommodating a very disjointed schedule. With 
that, this hearing is adjourned.
    [Whereupon, at 12:02 p.m., the Committee was adjourned.]

                                 [all]

</pre></body></html>
